July 12, 2011

JOSEPH CORBETT
CHIEF FINANCIAL OFFICER AND EXECUTIVE VICE PRESIDENT

MARIE THERESE DOMINGUEZ
VICE PRESIDENT, GOVERNMENT RELATIONS AND PUBLIC POLICY

SUBJECT: Management Advisory – Leveraging Assets to Address Financial
         Obligations (Report Number FF-MA-11-118)

In recent U.S. Postal Service Office of Inspector General (OIG) reports, we identified
more than $142 billion the U.S. Postal Service has made in overpayments to its
retirement benefits programs.1 The Office of Personnel Management (OPM) used an
improper funding allocation methodology for the Civil Service Retirement System
(CSRS) and excessive health care inflation rates. We also reported the Postal Service
has prefunded its pension and retiree health benefits plans at substantially higher levels
than other public and private sector entities. According to figures the OPM provided, the
Postal Service has already funded nearly 85 percent of those future obligations.2
Further, the Postal Service continues to pay about $11 billion annually to fund these
retirement programs.3

The Postal Service is currently working with Congress to develop legislation to address
comprehensive issues identified in our prior audit reports. In the interim, this report
presents the results of our review to determine whether an opportunity exists for the
Postal Service to leverage the substantial wealth it holds in assets (building and land) to
address its annual mandatory funding obligations (Project Number 11BD008FF000).
See Appendix A for additional information about this review.




1
  The OIG issued five management advisory reports and one white paper addressing overpayments related to
pensions and retiree health care. See Appendix A for a list of the reports.
2
  As of September 30, 2009, OPM estimated the Postal Service’s future retirement costs totaled $363.9 billion, while
assets to cover these liabilities totaled $309.1 billion, leaving an unfunded liability of $55 billion.
3
  The Postal Service pays about $3 billion annually to fund the Federal Employees Retirement System (FERS), $5.6
billion annually through FY 2016 for the mandatory Postal Accountability and Enhancement Act (Postal Act) of 2006
payments to the retiree health fund, and more than $2 billion annually for current retiree health care premiums. The
Postal Act of 2006 suspended funding CSRS by the Postal Service until FY 2017.
Leveraging Assets to Address                                                               FF-MA-11-118
 Financial Obligations


Leveraging Assets for Retirement Benefit Obligations

The Postal Service has the authority to transfer its real property to other government
agencies with or without reimbursement when the transfer would serve the public
interest.4 Therefore, the Postal Service could leverage its real property assets with the
consent of the U.S. Department of Treasury (Treasury) and OPM under terms and
conditions to which all parties agree.5 The Postal Service would retain title to the
leveraged properties unless or until it is no longer able to fund its retirement programs at
an operational level. If the Postal Service becomes insolvent, Treasury could liquidate
the leveraged real property and return the programs to an operational level.

The Postal Service reported nearly $27 billion (purchase price) for property such as
buildings and land in its fiscal year (FY) 2010 annual financial report.6 The fair market
value of these assets (owned by the Postal Service) is likely to be much higher than the
purchase price of the assets, as some of these holdings were purchased in prime
locations years ago and their market value may have appreciated considerably.7 To
determine the fair market value of Postal Service-owned real property, many factors
must be considered, such as region, square footage, location, traffic flow, and facility
type. Nevertheless, if the Postal Service were to leverage its real property assets at the
fair market value, that amount would likely cover the remaining $55 billion of unfunded
liability in its retiree benefit funds. For example, the National Postal Museum had a
purchase price of $47 million and an assessed tax value of $304 million (as shown in
Illustration 1).8




4
  39 U.S. Code (U.S.C.) § 2002(d) (1970).
5
  39 U.S.C. § 401(5) and 411.
6
  The Postal Service does not maintain fair market or assessed tax value records for its properties.
7
  An estimate of the fair market value of Postal Service property and equipment was outside the scope of this report.
8
  We obtained the assessed value from area taxing authority records.




                                                          2
Leveraging Assets to Address                                                              FF-MA-11-118
 Financial Obligations



                    Illustration 1: National Postal Museum, Washington, D.C.




                    Source: http://newsdesk.si.edu/sites/default/files/photos/building_5.jpg

Although this example may not represent the average appreciation of property, the
Postal Service is likely to have a significant cumulative base of appreciation from which
to leverage its buildings and land, because it owns properties in every major U.S. city.
For other examples of purchase price vs. assessed values for Postal Service-owned
real property, see Appendix B.

The Postal Service has the authority to sell, maintain, lease, or dispose of its real
property in any manner it deems necessary or convenient.9 It has used this authority
since its creation under the Postal Reorganization Act of 1970. The Postal Service’s
ability to leverage assets to address financial obligations is contingent on the Treasury
and OPM’s acknowledgment that it could use real estate, if necessary, to fund its
retirement programs. Hence, the Postal Service, Treasury, and OPM would need to
define and agree to the terms and conditions to facilitate such an arrangement. The
parties would also need to agree on the fair market value of each Postal Service
property to be leveraged before executing such an arrangement.

Further, leveraging assets does not necessarily count against the debt ceiling. This is
important, because the Postal Service expects to reach its $15 billion debt ceiling by the
end of FY 2011. The Postal Service projects it will not have sufficient cash and
borrowing capacity to fund fully retirement benefit obligations due on
September 30, 2011.10

9
 39 U.S.C. § 401(5).
10
  The Postal Service has an estimated $5.5 billion payment due to its Retiree Health Benefit Fund on September 30,
2011.




                                                         3
Leveraging Assets to Address                                                              FF-MA-11-118
 Financial Obligations



Although current legislation provides the Postal Service the authority to sell, maintain,
lease, or dispose its real property in any manner it deems necessary or convenient, we
do not believe this option has been fully explored. Consequently, the Postal Service has
not developed processes to use assets in this manner. We believe the Postal Service
should coordinate with applicable parties to identify specific properties that it plans to
hold (and, in the case of default, convert to cash), and that group of properties would
need to be individually appraised to identify the fair market value of the property. The
process should allow the Postal Service the authority to substitute properties if it
determines to close one of the leveraged facilities.

The Postal Service has accumulated about $309 billion in cash for its retirement benefit
funds. To achieve 100 percent funding of its retirement benefit programs, the Postal
Service needs an additional $55 billion in cash or assets. The Postal Service owns
buildings and land having a purchase value of $27 billion.11 We believe if the real
property were appraised at its fair market value, the value of assets would likely exceed
the current $55 billion needed to fully fund the retirement programs. This would protect
taxpayers, and a surplus of assets would likely be given to the Treasury if the Postal
Service were suddenly shut down – a very unlikely event. Further, leveraging the
substantial wealth the Postal Service holds in real property assets would assist it in
meeting current operational needs without increasing debt.

We recommend the chief financial officer and executive vice president, in coordination
with the vice president, Government Relations and Public Policy:

1. Coordinate with applicable parties, such as Congress, the Office of Personnel
   Management, and the U.S. Department of Treasury, to leverage Postal Service
   property, at the fair market value, to achieve 100 percent funding for its retirement
   benefit programs.

Management’s Comments

Overall, management agreed with the intent of the recommendation and considers the
value of Postal Service property assets relevant when considering the unfunded
retirement obligations. However, management does not know whether property assets
can be used to achieve 100 percent funding of these obligations in any legal or actuarial
sense if the Postal Service retains the title of the property. Upon sharing this report with
Treasury’s policy staff, the Postal Service and the Treasury believe further analysis is
needed to demonstrate the feasibility of our recommendation. In addition, the Postal
Service already identifies assets that are in excess of needs and obtains best value
from either development or disposal of those assets. The Postal Service also noted that,
in the short term, it believes the best legislative course would be for the rescission of the
mandate to pay more than $5 billion annually into the Retiree Health Benefit Fund,
return of the FERS overfunding, transfer of the CSRS surplus to the Retiree Health
11
     As of December 2010, the Postal Service owned nearly 8,900 buildings and parcels of land.




                                                           4
Leveraging Assets to Address                                         FF-MA-11-118
 Financial Obligations


Benefit Fund, and other initiatives. Management will raise the leveraging issue with
other stakeholders, as appropriate. See Appendix C for management’s comments, in
their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendation, and
management’s corrective actions should resolve the issue identified in the report.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact William Rickett, acting director,
Field Financial – Central, or me at 703-248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachments

cc:    Stephen J. Masse
       Timothy F. O’Reilly
       Robert J. Pedersen
       Stephen J. Nickerson
       Kimberly A. Weaver
       Corporate Audit and Response Management




                                            5
Leveraging Assets to Address                                                          FF-MA-11-118
 Financial Obligations


                                 Appendix A: Additional Information

BACKGROUND

The Postal Service is currently facing severe fiscal challenges. Declining mail volume
coupled with the burden of attempting to prefund future retirees’ health care as required
by the Postal Act of 2006 have placed the Postal Service in a precarious financial
position. It must overcome tremendous challenges to remain financially sound and meet
its mission. Because the Postal Service is such a large employer with substantial
retirement benefits, obligations such as prefunding its pension and retiree health benefit
liabilities poses a significant challenge.12 The Postal Service has prefunded its retirees’
pension obligations at close to 100 percent of the OPM’s actuarially estimated liabilities.
For its retirees’ health care, the Postal Service is increasing its prefunding level. This
increase is a result of the Postal Act of 2006’s requirements to prefund retirees’ health
care at about $5.6 billion per fiscal year from 2007 through 2016.

There is little debate for requiring the Postal Service, or any entity, to fund its retirement
benefit programs. However, there is no statute governing public sector pension plans or
retiree health benefits that defines “prefunding”. The prefunding levels established for
the Postal Service are the result of the OPM setting funding requirements for the CSRS
and FERS pension plans, the Postal Act of 2006’s funding requirements for Postal
Service retirees' health care, and requirements to pay current retiree health care
premiums. The prefunding requirements will force the Postal Service eventually to
prefund all retirement benefit programs at or above 100 percent. These payments have
contributed significantly to the Postal Service’s dire financial condition. According to the
postmaster general, in the past, the Postal Service paid this obligation using extra funds
and borrowing authority. As a result, the Postal Service projects it will not have sufficient
cash to meet obligations by the end of FY 2011.

One significant purpose of fully funding future retirement benefits is to reduce the risk of
the Postal Service being unable to pay those benefits to current and future retirees
when earned due to default or dissolution of the Postal Service. However, these funding
requirements do not account for significant overpayments in retirement benefit funds13
or the value of assets, such as real property, owned by the Postal Service.

OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of this management advisory was to determine whether an opportunity
exists for the Postal Service to leverage its assets to reduce its financial liability. We
obtained information from real estate industry personnel and Postal Service officials to
prepare this report. We also obtained assessed property values from taxing authorities

12
  Pensions consist of the CSRS and the FERS.
13
  As noted in Summary of Substantial Overfunding in Postal Service Pension and Retiree Health Care Funds (Report
Number FT-MA-10-002, dated September 30, 2010), the Postal Service has overfunded both its CSRS and FERS
pension obligations.




                                                       6
   Leveraging Assets to Address                                            FF-MA-11-118
    Financial Obligations


   and property photographs from various Internet websites. We did not rely on computer-
   generated data to support the opinions and conclusions presented in this report.

   We conducted this review from December 2010 through July 2011 in accordance with
   the Council of the Inspectors General on Integrity and Efficiency, Quality Standards for
   Inspection and Evaluation. We discussed our observations and conclusions with
   management on May 11, 2011, and included their comments where appropriate.

   PRIOR AUDIT COVERAGE

   We issued the following reports addressing opportunities for recovering overfunded
   amounts related to employee and retiree benefits. Management generally agreed with
   our recommendations that included seeking financial relief.

                                         Final
                                        Report       Monetary
   Report Title       Report Number      Date         Impact                    Report Results
Management              FT-MA-11-001   11/23/2010     $59.8 billion   This report summarizes the
Advisory –                                                            results of our review and
Substantial                                                           benchmarking of the Postal
Savings Available                                                     Service's prefunding of
by Prefunding                                                         pensions and retiree health
Pensions and                                                          care liabilities. It recommends
Retirees’ Health                                                      management pursue
Care at                                                               necessary changes that would
Benchmarked                                                           permit the Postal Service to
Levels                                                                prefund pension and retiree
                                                                      health care funds to
                                                                      benchmarked levels of 80 and
                                                                      30 percent, respectively, of
                                                                      liabilities.
Summary of              FT-MA-10-002    9/30/2010     $8.7 billion    This report summarizes the
Substantial                                                           results of four OIG reports
Overfunding in                                                        identifying overfunding issues
Postal Service                                                        in employee and retiree
Pension and                                                           benefit funds. It recommends
Retiree Health                                                        management develop a
Care Funds                                                            comprehensive legislative
                                                                      strategy to recover overfunded
                                                                      amounts and review all
                                                                      available data related to
                                                                      pensions and retiree health
                                                                      benefit calculations to ensure
                                                                      that calculations are
                                                                      reasonable and accurate.




                                                7
    Leveraging Assets to Address                                            FF-MA-11-118
     Financial Obligations


                                            Final
                                           Report      Monetary
   Report Title         Report Number       Date        Impact                   Report Results
Federal                  FT-MA-10-001      8/16/2010        $0         This report identifies that the
Employees                                                              Postal Service overfunded its
Retirement                                                             FERS contributions by $5.5
System                                                                 billion. In addition, present
Overfunding                                                            legislation does not exist to
                                                                       resolve surpluses. Further, it
                                                                       recommends that the Postal
                                                                       Service’s pension
                                                                       responsibilities be clearly
                                                                       delineated and separated from
                                                                       those of the rest of the federal
                                                                       government.
Civil Service             CI-MA-10-001     6/18/2010   $49.8 billion   The report discusses the
Retirement                                                             $75 billion CSRS overfunding
System                                                                 by the Postal Service,
Overpayment by                                                         assesses the related facts,
the Postal Service                                                     and identifies solutions.
The Postal              RARC-WP-10-001     1/20/2010        $0         This report discusses the
Service’s Share of                                                     inequities of the current
CSRS Pension                                                           system of funding of the
Responsibility                                                         Postal Service’s CSRS
                                                                       pension responsibility and
                                                                       explains that it has resulted in
                                                                       an overfunding of $75 billion.
Estimates of            ESS-MA-09-001(R)   7/22/2009   $5.95 billion   This report questions the
Postal Service                                                         OPM’s assumption that the
Liability for Retiree                                                  annual health care cost
Health Care                                                            inflation rate will average
Benefits                                                               7 percent annually for all
                                                                       future years.




                                                   8
Leveraging Assets to Address                                      FF-MA-11-118
 Financial Obligations


            Appendix B: Examples of Postal Service-Owned Real Property

Table 1 provides examples of real estate owned by the Postal Service with applicable
purchase prices and assessed values. We judgmentally selected these sites based on
geography and the availability of the assessed value provided by local taxing
authorities. These assessments may not represent fair market value, but we used this
data because we were unable to obtain fair market value appraisal information for
Postal Service-owned properties. The Postal Service only obtains this information when
the property is appraised at the time of purchase.

     Table 1: Purchase Price Versus Assessed Value for Selected Real Estate

    Facility Type              Purchase       Assessed
    and Location                 Price          Value             Illustration
    Processing and             $129,145,751   $177,851,323
   Distribution Center
         (P&DC)
 25 Dorchester Avenue,
      Boston, MA


       Main Office              $1,640,338     $3,006,800
     9 Lagoon Pond
      Vineyard, MA




       Main Office              $4,804,679    $15,159,124
  400 Whitehead Street
      Key West, FL




     Elway Station              $138,030       $1,175,600
  1715 7th Street West
    Saint Paul, MN




     Postal Service            $75,679,774    $115,167,700
     Headquarters
   475 L’Enfant Plaza
    Washington, DC




                                               9
Leveraging Assets to Address                                                  FF-MA-11-118
 Financial Obligations



    Facility Type              Purchase         Assessed
    and Location                 Price            Value                      Illustration
    P&DC Parking                $420,506          $646,020
 125 South Bloodworth
        Street
     Raleigh, NC




  Vehicle Maintenance          $13,448,230      $25,272,100
 Facility/Parking Garage
 2460 4th Avenue South
        Seattle, WA




   Southmore Station           $5,032,314       $17,486,466
   4100 Almeda Road
      Houston, TX




        P&DC                   $36,998,582      $43,524,480
  715 NW Hoyt Street
     Portland, OR




      Main Office              $1,074,531        $3,426,080
    1262 Post Road
      Fairfield, CT




Source: We obtained location data and purchase values from the Postal Service, assessed values from
local taxing authorities, and photographs from various Internet websites.




                                                 10
Leveraging Assets to Address                                 FF-MA-11-118
 Financial Obligations


                         APPENDIX C: Management’s Comments




                                        11
Leveraging Assets to Address        FF-MA-11-118
 Financial Obligations




                               12
